No. 19-164
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DAVID SAMARRIPA, ET AL., PETITIONERS
v.
GREGORY KIZZIAH, WARDEN, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email and first-class mail,
postage prepaid, this 16th day of October, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,777
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 16, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 16, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0164
SAMARRIPA, DAVID, ET AL.
GREGORY KIZZIAH, WARDEN, ET AL.
LOUIS A. CHAITEN
JONES DAY
901 LAKESIDE AVENUE
CLEVELAND, OH 44114
216-586-7244
LACHAITEN@JONESDAY.COM
WILLIAM T. RUSSELL
SIMPSON THACHER & BARTLETT LLP
425 LEXINGTON AVENUE
NEW YORK, NY 10017
212-455-2000
WRUSSELL@STBLAW.COM
KATHERINE B. WELLINGTON
HOGAN, LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
KATHERINE.WELLINGTON@HOGANLOVELLS.COM

VIA EMAIL

